No. 20-915
In the Supreme Court of the United
__________________

States

UNICOLORS, INC., A CALIFORNIA CORPORATION,
Petitioner,
v.
H & M HENNES & MAURITZ LP, A NEW YORK LIMITED
PARTNERSHIP,
Respondent.
__________________
On Petition for a Writ of Certiorari to
the United States Court of Appeals
for the Ninth Circuit

__________________
BRIEF IN OPPOSITION
__________________
STACI JENNIFER RIORDAN
DALE ALFRED HUDSON
NEAL JAMES GAUGER
Counsel of Record
NIXON PEABODY LLP
300 South Grand Avenue, 41st Floor
Los Angeles, California, 90071
Tel: (213) 629-6000
Fax: (213) 629-6001

sriordan@nixonpeabody.com
Attorneys for Respondent
H & M Hennes & Mauritz LP

April 1, 2021
Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
QUESTIONS PRESENTED
1. Did the Court of Appeals recognize correctly that
where a registrant submits a copyright application
containing inaccurate material information, the test
for invalidation is whether the registrant had
“knowledge that it was inaccurate,” as set forth in
17 U.S.C. § 411(b)(1)?
2. Where thirty-one designs are included in a single
copyright application, do the designs constitute a
“single unit of publication” where, as here, twentytwo of the designs were first published on January
15, 2011, and nine designs were first published on
a different day?

ii
LIST OF PARTIES
Petitioner Unicolors, Inc. (“Unicolors”) was the
Plaintiff and Appellee in the proceedings below.
Respondent H&M Hennes & Mauritz LP, a New
York limited partnership (“H&M NY”) was the
Defendant and Appellant in the proceedings below.
RULE 29.6 DISCLOSURE STATEMENT
H&M NY is a privately held company, has no
corporate parent, and no publicly held company has an
ownership interest of more than ten percent of its
outstanding stock.

iii
TABLE OF CONTENTS
QUESTIONS PRESENTED . . . . . . . . . . . . . . . . . . . i
LIST OF PARTIES. . . . . . . . . . . . . . . . . . . . . . . . . . . ii
RULE 29.6 DISCLOSURE STATEMENT . . . . . . . . ii
TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . . v
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . 1
REASONS FOR DENYING PETITION . . . . . . . . . . 7
A. The Ninth Circuit Has Correctly Held that the
Copyright Act Provides for Invalidation of a
Copyright Registration Where, as Here, the
Application Contains Inaccurate Information
Submitted with “Knowledge that It Was
Inaccurate” . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
B. There Is No Meaningful Split Among the
Circuits Regarding the Continued Viability of
the Discredited Intent-To-Defraud Standard . . . . 17
C. This Case Is a Poor Vehicle for Resuscitating the
Now-Discredited Intent-To-Defraud Test,
Because that Test Would Not Change the
Outcome in This Case. . . . . . . . . . . . . . . . . . . . . 21
D. The Ninth Circuit’s Interpretation of the “Single
Unit of Publication” Standard Is Based on a
Careful, Correct Interpretation of the Text of the
Regulation Itself, and It Is Not Based on
Retroactive Application of an Administrative
Interpretation . . . . . . . . . . . . . . . . . . . . . . . . . . . 26

iv
E. This Case Is a Poor Vehicle for Refining the
Contours of the “Single Unit of Publication”
Test, As Any Such Refinement Will Have No
Impact on this Case . . . . . . . . . . . . . . . . . . . . . . 27
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29

v
TABLE OF AUTHORITIES
CASES
Alaska Stock, LLC v. Houghton Mifflin
Harcourt Publishing Co., 747 F.3d 673
(9th Cir. 2014) . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
Bostock v. Clayton County, Georgia,
140 S. Ct. 1731 (2020). . . . . . . . . . . . . . . . . . 12, 13
Bruhn NewTech, Inc. v. United States,
144 Fed. Cl. 755 (2019) . . . . . . . . . . . 14, 15, 16, 19
Carcieri v. Salazar,
555 U.S. 379 (2009). . . . . . . . . . . . . . . . . . . . . . . 13
Connecticut Nat. Bank v. Germain,
503 U.S. 249 (1992). . . . . . . . . . . . . . . . . . . . . . . 13
Family Dollar Stores, Inc. v. United Fabrics Int’l,
Inc., 896 F. Supp. 2d 223 (S.D.N.Y. 2012) . . . . . 19
Fashion Ave. Sweater Knits, LLC v. Poof Apparel
Corp., No. CV1906302CJCJEMX,
2020 WL 7862132 (C.D. Cal. Oct. 28, 2020) . . . 19
Gold Value Int’l Textile, Inc. v. Sanctuary Clothing,
LLC, 140 S. Ct. 1294 (2020) . . . . . . . . . . . . . . . . 11
Gold Value in Internet Prod. LLC v. LLJ
Enterprises, Inc., No. CV1815421RBKAMD,
2020 WL 6883430 (D.N.J. Nov. 24, 2020) . . . . . 17
Gold Value v. Sanctuary Clothing,
925 F.3d 1140 (9th Cir. 2019), cert. denied,
140 S. Ct. 1294 (Mar. 9, 2020) . . . . . . . . . . passim

vi
Jeon v. Anderson,
No. SACV1701709JVSJDEX,
2019 WL 2949033 (C.D. Cal. June 14, 2019). . . 18
MidlevelU, Inc. v. ACI Info. Grp.,
No. 20-10856, 2021 WL 805534
(11th Cir. Mar. 3, 2021) . . . . . . . . . . . . . . . . 19, 20
Milner v. Dep’t of Navy,
562 U.S. 562 (2011). . . . . . . . . . . . . . . . . . . . . . . 13
Palmer/Kane LLC v. Gareth Stevens Publ’g,
No. 1:15-CV-7404-GHW, 2016 WL 6238612,
(S.D.N.Y. Oct. 24, 2016) . . . . . . . . . . . . . . . . . . . 19
Palmer/Kane LLC v. Rosen Book Works LLC,
188 F. Supp. 3d 347 (S.D.N.Y. 2016) . . . . . . . . . 19
Pohl v. MH Sub I, LLC,
478 F. Supp. 3d 1239 (N.D. Fla. 2020). . . . . 17, 18
Roberts v. Gordy,
877 F.3d 1024 (11th Cir. 2017). . . . . . . . . . passim
Rubin v. United States,
449 U.S. 424 (1981). . . . . . . . . . . . . . . . . . . . . . . 13
Seattlehaunts, LLC v. Thomas Fam. Farm, LLC,
No. C19-1937JLR, 2020 WL 1674124
(W.D. Wash. Apr. 6, 2020) . . . . . . . . . . . . . . . . . 18
SellPoolSuppliesOnline.com LLC v. Ugly Pools Ariz.
Inc., No. CV-15-01856-PHX-BSB,
2018 WL 4565900 (D. Ariz. Sept. 24, 2018). . . . 19
Sullivan v. Stroop,
496 U.S. 478 (1990). . . . . . . . . . . . . . . . . . . . . . . 13

vii
Unicolors, Inc. v. H&M Hennes & Mauritz, L.P.
(“Unicolors”), 959 F.3d 1194
(9th Cir. 2020) . . . . . . . . . . . . . . . . . . . . . . . passim
United Fabrics, Int’l, Inc. v. C&J Wear, Inc.,
630 F.3d 1255 (9th Cir. 2011). . . . . . . . . . . . . . . 28
Universal Dyeing & Printing, Inc. v. Knitwork Prods.
II, LLC, No. 217CV05660ODWMRW,
2019 WL 2613448 (C.D. Cal. June 26, 2019). . . 18
Yurman Studio, Inc. v. Castaneda,
591 F. Supp. 2d 471 (S.D.N.Y. 2008) . . . . . . 27, 28
STATUTES
15 U.S.C. § 1064 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
17 U.S.C. § 411(b). . . . . . . . . . . . . . . . . . . . . 19, 20, 25
17 U.S.C. § 411(b)(1) . . . . . . . . . . . . . . . . . . . . passim
17 U.S.C. § 411(b)(1)(A) . . . . . . . . . . . . . . . . . 9, 19, 25
17 U.S.C. § 411(b)(1)(B) . . . . . . . . . . . . . . . . . . . . . . 19
17 U.S.C. § 411(b)(2) . . . . . . . . . . . . . . . . . . . . . 3, 4, 6
37 C.F.R. § 202.3(b)(4)(i)(A) . . . . . . . . . . . . 8, 9, 26, 27
OTHER AUTHORITIES
https://www.supremecourt.gov/DocketPDF/19/19708/123864/20191127120321494_Gol d%20Valu
e%20Petition--PDFA.pdf . . . . . . . . . . . . . . . . . . 11

1
STATEMENT OF THE CASE
This case arises out of a group Copyright
Application that Petitioner Unicolors submitted to the
U.S. Copyright Office on February 14, 2011
(Registration no. No. VA 1-770-400, hereinafter “the
‘400 Registration”). Pursuant to that application,
Unicolors purported to register thirty-one separate
designs, including EH101, the design that is the subject
of this lawsuit. There was a problem with this multiple
works application. Although Unicolors represented to
the Copyright Office that all thirty-one designs were
concurrently first published as a collection on January
15, 2011, Unicolors knew that this was not true. In
fact, nine of the designs were designated as “confined”
(i.e., exclusive to one requesting customer), and were
not first published with the other designs on January
15.
In late fall 2015, H&M NY retail stores in the
United States began selling garments made from fabric
which bore an arguably similar design (the “Xue Xu
design”).
On April 5, 2016, Unicolors brought suit against
H&M NY in the U.S. District Court for the Central
District of California, alleging that H&M NY had
infringed upon Unicolors’ copyrighted EH101 design by
selling garments bearing the Xue Xu design.
This copyright infringement claim was tried to a
jury over three days in December 2017. As is explained
more fully below, the evidence at trial established that
Unicolors knowingly mixed so-called “confined” designs
and unconfined designs in the same group copyright

2
application, falsely representing that all thirty-one
designs were first published together as a group on
January 15. The testimony at trial demonstrated that
the confined designs were segregated from the other
designs and embargoed. Unicolors was aware of these
facts, and thus knowingly included inaccurate
information on the application it submitted to the
Copyright Office.
After deliberating, the jury returned a verdict which
concluded that H&M NY had infringed on Unicolors’
copyright by selling garments bearing a modified copy
of EH101. The jury awarded Unicolors disgorgement
damages and lost profits in the aggregate amount of
$846,720.
On April 10, 2018, H&M NY filed a Renewed
Motion for Judgment as A Matter of Law, or, In The
Alternative, For New Trial (hereinafter the “JMOL
Motion”). Ninth Cir. Case No. 18-56253, Dkt. 8-4, at
80-118.1 The JMOL Motion requested, inter alia, that
the court reduce the damages award to $98,395.
The JMOL Motion also argued that Unicolors’ ‘400
Registration covering the EH101 work was invalid as
a matter of law because Unicolors had secured the
registration by including known inaccuracies in its
application. Specifically, testimony at trial had
established that nine of the designs included in the
group ‘400 Registration had not been first published or
placed for sale at the same time as the others, thereby
1

All docket-related page numbers referenced in this brief are ECF
page numbers, not the page numbers of the filed documents
themselves.

3
invalidating the ‘400 Registration. In the alternative,2
H&M NY’s papers suggested that the district court
should send an inquiry to the Register of Copyrights in
accordance with 17 U.S.C. § 411(b)(2):
[n] [A]s H&M [NY] has previously proposed,
this Court can ask the Register of Copyrights,
pursuant to 17 U.S.C. § 411(b)(2), whether it
would have registered the copyright if it had
known of Unicolors’ fraud. [n] 17 U.S.C.
§ 411(b)(2), provides that “In any case in which
inaccurate information described under
paragraph (1) is alleged, the court shall request
the Register of Copyrights to advise the court
whether the inaccurate information, if known,
would have caused the Register of Copyrights to
refuse registration.”

2

Unicolors’ petition mentions H&M NY’s alleged “failure to file a
referral motion,” suggesting, without directly stating, a district
court is somehow excused from complying with the mandatory
language of section 411(b)(2) unless a party requests compliance
in a separate, formal motion. Petition at 5. Unsurprisingly,
Unicolors cites no authority for the notion that a formal motion is
required. To the contrary, section 411(b)(2) clearly states that the
obligation to issue an inquiry to the Copyright Office is triggered
whenever “inaccurate information described under paragraph (1)
is alleged.” It is notable that in Gold Value v. Sanctuary Clothing,
925 F.3d 1140 (9th Cir. 2019), cert. denied, 140 S. Ct. 1294 U.S.
LEXIS 1620 (U.S., Mar. 9, 2020), the district court appropriately
sent the mandatory inquiry to the Copyright Register, even though
neither party had requested that it do so. See CDCA Case No.
2:17-cv-03726, Dkts. 72, 93, 99, 115 at 12-13; 114.

4
Ninth Cir. Case No. 18-56253, Dkt. 8-4, at 103, n.11;
Id., Ninth Cir. Case No. 18-56253, Dkt. 8-3 at 268, n.8.
(emphases added).
In its Opposition papers, Unicolors advanced a
tortured interpretation of section 411(b)(2), arguing
that the statute only required the district court to
inquire of the Copyright Office before invalidating a
challenged copyright, but not before upholding such a
copyright. Id., Dkt. 8-3, at 298. Unicolors provided no
authority for this interpretation, which is contrary to
the explicit language of section 411(b)(2). Id.
On August 1, 2018, the district granted H&M NY’s
JMOL Motion in part, and denied it in part.
Specifically, the district court found that the jury’s
damage award was excessive, and conditionally
granted the JMOL Motion on the issue of damages,
subject to Unicolors accepting a remittitur of $266,209
(which Unicolors would later accept). In all other
respects, the district court denied the JMOL Motion.
In denying the JMOL Motion, the district court
rejected H&M NY’s challenge to the validity of the
group copyright for two reasons. First, the district
court speculated that “even if the Register of
Copyrights had known that the works listed in the ‘400
Registration were published on a date other than
January 15, 2011, it would not necessarily have refused
the registration.” Id., Dkt. 8-1, at 25. (emphasis
added.) The district court did not explain why it was
engaging in this speculative exercise, rather than
simply referring the question to the Register of
Copyrights, pursuant to 17 U.S.C. § 411(b)(2), as H&M
NY had twice suggested in writing. Id., Dkt. 8-3, at

5
268, n.8; Id., Dkt. 8-4, at 103, n.11. The district court’s
disposition left unresolved the question of what the
Register of Copyrights would have done had it known
that Unicolors knowingly included inaccurate
information in the application.
Second, the district court stated, incorrectly, that
there was “no evidence that Unicolors knew the ‘400
Registration contained false information.” Id., Dkt. 81, at 25. From this incorrect premise, the district
court, applying the since discredited intent-to-defraud
standard, concluded that there had been no “showing
that Unicolors “intended to defraud the Copyright
Office.” Id.
On August 13, 2018, Unicolors accepted the district
court’s remittitur.
Thereafter, Unicolors filed a motion for attorney’s
fees and costs, which the district court granted. The
district court then entered judgment in favor of
Unicolors in the total amount of $780,774, including
attorney’s fees and costs in the aggregate amount of
$514,565.
H&M NY filed a timely appeal.
On June 4, 2019, while the appeal was pending, the
court of appeals issued an important decision that
would directly impact the course of this appeal. Gold
Value v. Sanctuary Clothing, 925 F.3d 1140 (9th Cir.
2019), cert. denied, 140 S. Ct. 1294 (Mar. 9, 2020). In
Gold Value, the court of appeals: (1) held that section
411(b)(1) does not incorporate an intent-to-defraud
standard, expressly disapproving prior dicta which had
suggested otherwise, and (2) assessed the impact of the

6
letter from the Register of Copyrights in that action
which stated that the agency “would have refused
registration” had it known of misstatements in the
application. Id. at 1143, 1147. Notably, Unicolors’
counsel in this action also represented the unsuccessful
plaintiff in Gold Value.
In light of the Gold Value decision, resolution of this
appeal would now turn on two issues: (1) whether the
district court erred in applying the intent-to-defraud
standard, and (2) whether the district court was
required to inquire of the Copyright Register in
accordance with 17 U.S.C. § 411(b)(2).
On May 29, 2020, the court of appeals reversed the
judgment of the district court, directing it to submit an
inquiry to the Register of Copyrights to ascertain
whether the inaccurate information contained in the
‘400 Registration application, if known to the Register
of Copyrights, would have caused it to refuse
registration. Unicolors, Inc. v. H&M Hennes &
Mauritz, L.P. (“Unicolors”), 959 F.3d 1194 (9th Cir.
2020). The court of appeals also found that the district
court’s reasoning for denying H&M NY’s JMOL Motion
was “flawed,” because, inter alia, there is no intent-todefraud requirement under section 411(b)(1).
Unicolors, 959 F.3d at 1198.
On September 4, 2020, the district court, as
directed, sent an inquiry to the Register of Copyrights,
requesting that it answer the following question:
If the Register of Copyrights had been aware of
the known inaccuracies contained in Unicolors,
Inc.’s Registration application No. VA 1-770-400,

7
as described in the Ninth Circuit’s decision in
Unicolors, Inc. v. H&M Hennes & Mauritz, LP,
959 F.3d 1194 (9th Cir. 2020), would those
inaccuracies have caused it to refuse copyright
registration? Why or why not?
The district court requested a response not later than
March 5, 2021.
As this brief went to print, the Register of
Copyrights had not responded to the district court’s
inquiry.
REASONS FOR DENYING PETITION
The questions presented by the petition do not
satisfy this Court’s criteria for granting review.
First, Unicolors is incorrect in asserting that the
court of appeals committed error in 2019 when it held,
in Gold Value, that a showing of intent-to-defraud is
not required to invalidate a copyright registration
under 17 U.S.C. § 411(b)(1). 925 F.3d at 1147. The
holding of Gold Value is based squarely on the
unambiguous language of section 411(b)(1), which
authorizes invalidation in those cases where
“inaccurate information was included on the
application for copyright registration with knowledge
that it was inaccurate[.]” Id. (emphasis added.) The
court of appeals correctly applied the Gold Value
holding to this action. Because Gold Value was
correctly decided, this Court acted prudently when it
denied certiorari in Gold Value last year.
Moreover, even if this Court were inclined to revive
the now-discredited intent-to-defraud test, this case

8
would be a poor vehicle for such an exercise. The
application of an intent-to-defraud test would not
change the outcome in this case, as Unicolors
knowingly misrepresented that all thirty-one designs,
including EH101, were published together, in an
admitted effort to avoid payment of registration fees
applicable to individual registrations. All of the
elements of fraud are present.
Furthermore, there is no meaningful split among
the circuits regarding the continued viability of the now
discredited intent-to-defraud standard. Unicolors
relies primarily on Roberts v. Gordy, 877 F.3d at 1024
(11th Cir. 2017) as arguably creating a circuit-split,
but, as is demonstrated below, Roberts is an outlier
case, and a consensus is now coalescing around the
Gold Value holding that section 411(b)(1) should be
applied as written.
The petition for certiorari
presented in Gold Value was largely based on a
purported conflict between the Ninth Circuit and the
Eleventh Circuit, as is asserted in the instant petition.
SCOTUS Case No. 19-708, Petition (Nov. 27, 2019). As
noted above, this Court denied certiorari in Gold Value
in March 2020, and nothing has occurred in the
intervening twelve months to warrant review now.
The court of appeals also recognized that Unicolors’
copyright application did not qualify as a group
registration because it did not constitute a “single unit
of publication” under 37 C.F.R. § 202.3(b)(4)(i)(A).
Unicolors strains to distract this Court with a
misleading argument that the “bundling” requirement
applied by the Ninth Circuit was not based on the
language of the applicable regulation; however, the

9
opinion explicitly bases its assessment on a careful
analysis of the language of section 202.3(b)(4)(i)(A).
Moreover, even if the “bundling” standard applied by
the court of appeals were deemed incorrect, that would
not change the outcome in this case, as it is clear that
Unicolors cannot satisfy the “single unit of publication”
test under any interpretation.
Finally, review of the issues presented by this
petition is premature, as the issues are continuing to
percolate through the district courts and courts of
appeal, and it appears unlikely that intervention by
this Court will ever be warranted.3

3

Amici American Society of Media Photographers, Inc. and
California Society of Entertainment Lawyers (“Amici”) assert,
without support, that denial of certiorari in this case would send
“shockwaves” into the fields of patent and trademark law,
potentially leading to the “reversal of decades of well-settled law”
in those fields. (Amicus Brief of American Society of Media
Photographers, Inc. and California Society of Entertainment
Lawyers (“Amicus Brief”) at 4-5.) Amici never explain why one
should expect that courts will blindly apply the Ninth Circuit
holding herein, which is limited to copyright law, into the fields of
patent and trademark law, which have their own distinct statutory
frameworks and their own bodies of decisional law. Compare, e.g.
15 U.S.C. § 1064 (providing that a petition to cancel trademark can
be filed if “registration was obtained fraudulently”) with 17 U.S.C.
§ 411(b)(1)(A) (providing that copyright registration may be
invalidated if information “was included with knowledge that it
was inaccurate”). Notably, Amici do not cite to a single
commentator, article or treatise that has observed any purported
shockwaves in the twelve months since this Court denied certiorari
in Gold Value, the basis for the Ninth Circuit’s ruling herein.

10
A. The Ninth Circuit Has Correctly Held that the
Copyright Act Provides for Invalidation of a
Copyright Registration Where, as Here, the
Application Contains Inaccurate Information
Submitted with “Knowledge that It Was
Inaccurate”
The petition’s central contention is that the court of
appeals committed error in 2019 when it held, in Gold
Value, that invalidation of a copyright registration
under 17 U.S.C. § 411(b)(1) does not require a showing
of intent-to-defraud, but only that the claimant had
included inaccurate information on the application
“with knowledge that it was inaccurate.” 925 F.3d at
1147. The holding of Gold Value (applied by the court
of appeals) is manifestly correct, as it adheres to and
honors the plain language of the statute. Section
411(b)(1) was added to the Copyright Act in 2008, when
Congress passed the Prioritizing Resources and
Organization for Intellectual Property Act of 2008 (the
“PRO IP Act”). It provides:
(1) A certificate of registration satisfies the
requirements of this section and section 412, regardless
of whether the certificate contains any inaccurate
information, unless –
(A) the inaccurate information was included on the
application for copyright registration with
knowledge that it was inaccurate; and
(B) the inaccuracy of the information, if known,
would have caused the Register of Copyrights to
refuse registration.
17 U.S.C. § 411(b)(1) (emphasis added).

11
In Gold Value, the court of appeals properly rejected
the proposition now advanced by Unicolors: that a
copyright issued on the basis of an application
submitted with known inaccuracies cannot be
invalidated unless the applicant “intended to defraud”
the Copyright Office. 925 F.3d at 1147. This rejection
makes sense; Unicolors’ proffered interpretation would
require courts to read into the statute words that are
plainly not there. As the Gold Value court explained:
We hold that [the plaintiff’s] argument [for the
intent-to-defraud standard] is foreclosed by the
plain language of § 411(b), which does not
require a showing of fraud, but only that the
claimant included inaccurate information on the
application “with knowledge that it was
inaccurate.”
Id. (citation omitted) (emphasis added).
On November 27, 2019, counsel for Gold Value (also
counsel for Unicolors herein) filed a petition for
certiorari in Gold Value, advancing substantially the
same arguments as are advanced in the instant
Petition.4 This Court denied that petition. Gold Value
Int’l Textile, Inc. v. Sanctuary Clothing, LLC, 140 S. Ct.
1294 (2020).
In this case, the court of appeals reaffirmed the
correctness of its holding in Gold Value: “To be sure,
several opinions from this Court have implied that

4

Available at: https://www.supremecourt.gov/DocketPDF/19/19708/123864/20191127120321494_Gold%20Value%20Petition-PDFA.pdf

12
there is an intent-to-defraud requirement for
registration invalidation. . . . But we recently clarified
that there is no such intent-to-defraud requirement.”
959 F.3d at 1198 (citing Gold Value) (emphasis added).
Thus, the issue presented by the petition boils down
to whether the court of appeals committed error in
concluding that section 411(b)(1) means exactly what it
says. Unicolors stirs up as much dust as it can in an
effort to obscure that the issues are really quite simple,
and that the Ninth Circuit’s holdings are self-evidently
correct. Attempting to create doubt where none exists,
Unicolors cites to a hodge-podge of secondary sources,
administrative interpretations, and legislative history
in a futile effort to demonstrate that Congress did not
mean what it clearly said when it adopted section
411(b)(1). Unicolors also cites to an outlier Eleventh
Circuit decision, Roberts v. Gordy, 877 F.3d at 1024
(11th Cir. 2017), which was also cited in the Gold Value
Petition. Roberts was not persuasive when the Gold
Value petition was considered, and it is not persuasive
now.
Although the pertinent legislative history provides
no substantive support for Unicolors’ position, in this
instance the statutory language is so clear that there is
no need to even consult such history. As this Court has
stated repeatedly, “when the meaning of the statute’s
terms is plain, our job is at an end. The people are
entitled to rely on the law as written, without fearing
that courts might disregard its plain terms based on
some extra-textual consideration.” Bostock v. Clayton
County, Georgia, 140 S. Ct. 1731, 1749 (2020) (citing
Carcieri v. Salazar, 555 U.S. 379, 387 (2009);

13
Connecticut Nat. Bank v. Germain, 503 U.S. 249, 25354 (1992); Rubin v. United States, 449 U.S. 424, 430
(1981)); see also Sullivan v. Stroop, 496 U.S. 478, 482
(1990) (Where, as here, the “the statute is clear and
unambiguous ‘that is the end of the matter, for the
court . . . must give effect to the unambiguously
expressed intent of Congress.’”) (Internal citation
omitted).
As this court observed in Bostock, “some Members
of this Court have consulted legislative history when
interpreting ambiguous statutory language. [But]
‘Legislative history, for those who take it into account,
is meant to clear up ambiguity, not create it.’” Id. at
1749 (quoting Milner v. Dep’t of Navy, 562 U.S. 562,
574 (2011)).
Unicolors contends that when Congress adopted
section 411(b)(1) in 2008, it intended to codify, in toto
and without refinement, an alleged pre-existing “courtmade standards” rule which had required a showing of
intent-to-defraud or bad faith.
Petition at 12.
However, if that were the case, Congress would have
included statutory language reflecting such an
intention. Instead, the statute lacks any intent-todefraud language, and any other reference to a more
stringent scienter requirement. The statute only looks
to whether inaccurate information “was included on the
application . . . registration with knowledge that it was
inaccurate[.]” Gold Value, 925 F.3d at 1147 (emphasis
added). The court of appeals, in its opinion below, and
previously in Gold Value, faithfully applied the statute
in accordance with its plain, unambiguous meaning.

14
There is no need for this Court to intervene to change
that.
Moreover, if Congress had intended to incorporate
past, conflicting administrative interpretations, the
legislative history would certainly include some
indication of this otherwise unexpressed intent.
However, as the Federal Circuit Court correctly
observed in Bruhn NewTech, Inc. v. United States, 144
Fed. Cl. 755 (2019):
[T]the legislative history of the 2008 PRO IP Act
also does not appear to indicate that a showing
of fraud or willfulness is required under 17
U.S.C. § 411(b). . . . H.R. Rep. 110-617, at 24
(2008). The above-quoted United States House
Committee on the Judiciary report does not
mention any requirement of fraud or willfulness,
and plaintiffs have not cited to any legislative
history indicating that a showing of fraud or
willfulness is required under 17 U.S.C. § 411(b).
Id. at 797, n.16 (emphasis added).
Unicolors relies heavily on general statements from
several sources to support its premise that section
411(b)(1) was intended to “codify the doctrine of fraud
on the Copyright Office.” Petition at 9. Such
statements are far too vague and generic to provide
meaningful support for Unicolors’ specific argument, to
wit, that in codifying the doctrine, Congress intended
to adopt the intent-to-defraud test, as opposed to the
‘knowingly inaccurate’ standard which Congress
actually included in the text of the statute. Even if
Congress at some point considered “codifying” the

15
doctrine of fraud on the Copyright Office, the statutory
language proves Congress did not include that
requirement in the legislation it passed.
Ultimately, Unicolors is forced to rely, awkwardly,
on the doctrine of Chevron deference, citing Alaska
Stock, LLC v. Houghton Mifflin Harcourt Publishing
Co., 747 F.3d 673 (9th Cir. 2014) for the proposition
that a court should only disturb an administrative
statutory interpretation “for cogent reasons.” Petition
at 11. Needless to say, it is evident why the court of
appeals reached the conclusion it did both in Gold
Value and in this dispute: the now-obsolete
administrative interpretation has been superseded by
new, unambiguous statutory language, and several
federal appellate courts have rejected the prior
interpretation.
Furthermore, none of the
administrative interpretations cited by Unicolors seem
to reflect a careful, reasoned examination of the
statute; rather, the authorities cited seem to reflect
nothing more than a citation to pre-2008 law,
accompanied by an untested assumption that section
411(b)(1) did not change the law. This is not an
example of an administrative agency bringing its
purportedly superior expertise to bear on a close
question of regulatory interpretation.
Most notably, the authorities cited by Unicolors in
support of its interpretation of section 411(b) were all
considered and rejected by the Federal Circuit in
Bruhn NewTech, and for good reasons. Specifically, the
Bruhn NewTech court fully examined Roberts, the
Eleventh Circuit decision on which Unicolors’ petition
so heavily relies. In a lengthy, thoughtful, and well-

16
reasoned decision, the Federal Circuit examined the
reasoning of both Roberts and Gold Value, and found
the reasoning of Roberts to be unconvincing:
[T]he authorities relied upon in Roberts v.
Gordy, 877 F.3d [1024,] 1029 [(11th Cir. 2017),
namely the 2008 Annual Report of the Register
of Copyrights and St. Luke’s Cataract & Laser
Institute, P.A. [v. Sanderson], 573 F.3d [1186,]
1201 [(11th Cir. 2009)], contain limited analysis
of the language in the post-October 13, 2008
version of 17 U.S.C. § 411(b). [N]either Roberts
v. Gordy nor St. Luke’s Cataract & Laser
Institute, P.A. contain persuasive reasoning as to
why intentional or purposeful concealment is
required to invalidate a copyright registration in
light of the explicit words in the October 13,
2008 amendment to 17 U.S.C. § 411(b).
144 Fed. Cl. at 800 (emphasis added).
In contrast, the Bruhn NewTech court found the
reasoning of Gold Value persuasive, adopting its
approach: “[Our Conclusion] regarding the
interpretation of 17 U.S.C. § 411(b) is consistent with
the . . . the Ninth’s Circuit’s statement in Gold Value
International Textile, Inc. that the ‘plain language of
§ 411(b)’ does not require a showing of fraud, but only
that the claimant included inaccurate information on
the application ‘with knowledge that it was
inaccurate.’” Id. at 802 (internal citations omitted). As
the Bruhn NewTech court appropriately concluded, the
Ninth Circuit’s construction of section 411(b)(1) is

17
manifestly correct, further reinforcing that there is no
reason for this Court to intervene.5
B. There Is No Meaningful Split Among the
Circuits Regarding the Continued Viability of
the Discredited Intent-To-Defraud Standard
Notwithstanding Unicolors’ exaggerated assertions,
there is no need for this Court to get involved in
resolving whether section 411(b)(1) means what it says.
Although the Eleventh Circuit did, in Roberts, depart
from the clear statutory language, it is apparent that
a consensus is now coalescing around the holding of
Gold Value holding that section 411(b)(1) should be
applied as written. This Court was correct to deny
certiorari in Gold Value in 2020, and nothing has
occurred in the intervening twelve months to make the
case for certiorari any more compelling.
In fact, since Gold Value was decided in 2019, not a
single federal court at any level has rejected the
holding of Gold Value in favor of Roberts.6 In contrast,
5

Amici falsely state that the New Jersey district court “criticized”
the holding of Gold Value in Internet Prod. LLC v. LLJ
Enterprises, Inc., No. CV1815421RBKAMD, 2020 WL 6883430
(D.N.J. Nov. 24, 2020). It is apparent from even a cursory reading
of that case that the district court expressed no opinion whatsoever
as to whether Gold Value was correctly decided. To the contrary,
the district court simply held that in light of uncertainty as to
whether posting material online constitutes “publication” or a
mere “display,” it could not “conclusively find that Plaintiff was
dishonest when it stated that the text was ‘unpublished.’” Id. at
*11-12.
6

In dicta, the court in Pohl v. MH Sub I, LLC, 478 F. Supp. 3d
1239 (N.D. Fla. 2020) cited to Roberts with approval. See id. at

18
numerous courts have followed Gold Value’s holding
and/or cited it with approval. See, e.g., Seattlehaunts,
LLC v. Thomas Fam. Farm, LLC, No. C19-1937JLR,
2020 WL 1674124, at *5 (W.D. Wash. Apr. 6, 2020);
Universal Dyeing & Printing, Inc. v. Knitwork Prods.
II, LLC, No. 217CV05660ODWMRW, 2019 WL
2613448, at *6 (C.D. Cal. June 26, 2019); Jeon v.
Anderson, No. SACV1701709JVSJDEX, 2019 WL
2949033, at *5 (C.D. Cal. June 14, 2019).
It is also notable that since Roberts was decided in
2017, no court outside the Eleventh Circuit has
followed its holding. Given that Gold Value stands for
the modest proposition that courts should apply section
411(b)(1) in accordance with its clear language, this
trend is likely to continue. Contrary to Unicolors’
contention that the decision below has somehow
“deepened” the Circuit split, the exact opposite is the
case. As discussed above, there are now three Circuit
Court opinions that have expressly rejected Roberts,
which has become an outlier case. It is apparent that
the appellate and district courts are coming into
alignment with the statutory language, and it is only a
matter of time before the Eleventh Circuit itself will be
forced to re-examine the holding of Roberts. Indeed,
even the court of appeals’ decision in this action has
already been cited with approval for its affirmation of
the ‘knowingly inaccurate” standard under section

1239. However, the Pohl court did not cite or discuss the contrary
Gold Value decision, and the subject passage was not even
marginally relevant to the outcome of the case. “Defendant does
not seek to invalidate Plaintiff’s copyright due to fraud on the
Copyright Office[.]” Id. at *4-5.

19
411(b)(1).7 Granting review at this time based on
Unicolors’ alleged circuit split would be premature.
The Federal Circuit’s decision in Bruhn NewTech,
supra, provides further evidence that the intent-todefraud standard is being discarded. As the Federal
Court observed, “other district courts have found that
the language in the current version of 17 U.S.C.
§ 411(b) does not require a showing of fraud or
willfulness.” 144 Fed. Cl. 755 at 802; see also
SellPoolSuppliesOnline.com LLC v. Ugly Pools Ariz.
Inc., No. CV-15-01856-PHX-BSB, 2018 WL 4565900, at
*12 (D. Ariz. Sept. 24, 2018) (“The Court, therefore,
concludes that it is not necessary to show fraud on the
copyright office for § 411(b)(1)(A) and (B) to apply[.]”),
affirmed on appeal, Ninth Cir. Case No. 18-16839, Dkt.
34-1 (Mar. 31, 2020); Palmer/Kane LLC v. Gareth
Stevens Publ’g, No. 1:15-CV-7404-GHW, 2016 WL
6238612, at *4 (S.D.N.Y. Oct. 24, 2016) (stating that 17
U.S.C. § 411(b) does not require a showing of
fraudulent intent); Palmer/Kane LLC v. Rosen Book
Works LLC, 188 F. Supp. 3d 347, 352 (S.D.N.Y. 2016)
(“Nor is plaintiff correct that the statute [17 U.S.C.
§ 411(b)] requires a showing of fraudulent intent on the
part of the applicant.” (citing Family Dollar Stores, Inc.
v. United Fabrics Int’l, Inc., 896 F. Supp. 2d 223, 231
(S.D.N.Y. 2012)).8
7

Fashion Ave. Sweater Knits, LLC v. Poof Apparel Corp., No.
CV1906302CJCJEMX, 2020 WL 7862132, at *3 (C.D. Cal. Oct. 28,
2020)
8

Amici cite MidlevelU, Inc. v. ACI Info. Grp., No. 20-10856, 2021
WL 805534 (11th Cir. Mar. 3, 2021) as allegedly creating a
separate conflict with the Ninth Circuit’s holding that the district

20
As there is a clear and well-defined shift in the
court of appeals’ jurisprudence to follow the plain
language of 17 U.S.C. § 411(b) rather than the outdated
intent-to-defraud standard, there is no need for this
Court to intervene and grant certiorari.

court herein was required to comply with section 411(b). However,
Midlevelu is distinguishable on two grounds. First, in Midlevelu,
the Eleventh Circuit found that the defendant had “invited” the
district court’s error by requesting the opportunity to brief the
issue, and then declining to do so. Id. at *9. Nothing like that
occurred here. Second, in Midlevelu, the defendant was faulted for
arguing for the first time on appeal that the district could was
required to comply with 411(b), failing to brief the issue in even its
post-trial motions. Id. In the case at bar, H&M NY acted with
reasonable diligence in alerting the court to the problem and the
available options. Although it is true that H&M NY did not raise
the issue prior to trial, this is because H&M NY did not learn that
confined designs had been held back from the design room (i.e., not
published) until the third and final day of trial. Ninth Cir. Case
No. 18-56253, Dkt. 8-2, at 83. On that last day of trial, counsel for
H&M NY orally argued that the new testimony established that
the copyright registration was invalid, although counsel did not
cite to section 411(b) during that colloquy. CDCA Case No. 2:16cv-02322, Dkt. No. 239, at 112-19. However, in its first post-trial
written motion, H&M NY suggested that the district court comply
with section 411(b) and send a request to the Register of
Copyrights. Ninth Cir. Case No. 18-56253, Dkt. 8-4, at 103, n.11.
Under the circumstances, H&M NY acted with reasonable
diligence in bringing section 411(b) to the district court’s attention.
In any event, contrary to the suggestions of Amici, the Ninth
Circuit’s decision herein does not conflict with Midlevelu in any
way.

21
C. This Case Is a Poor Vehicle for Resuscitating
the Now-Discredited Intent-To-Defraud Test,
Because that Test Would Not Change the
Outcome in this Case
The record is clear that Unicolors knowingly mixed
so-called “confined” designs and unconfined designs in
the same copyright registration, falsely representing
that all thirty-one designs were first published together
as a group on January 15, 2011. Unicolors, 959 F.3d at
1197-98.
In fact, the evidence establishes that
Unicolors segregated the confined designs from the
others and held them back from circulation. Id. at
1197-99.
The evidence further establishes that
Unicolors included multiple works on copyright
applications, like the one at issue here, in an effort to
save on registration fees. Id. at 1196. Unicolors was
fully aware that the confined designs were not first
offered for sale as a collection with the other designs,9
and thus acted to defraud the Copyright Office in
submitting an improper group application which falsely
represented otherwise. Id. at 1200.
At trial, Unicolors’ owner Nader Pazirandeh
testified that confined designs generally have their

9

In this regard, Amici focus on alleged uncertainty in the
application of law, depending on whether a work is published or
unpublished. But in this case there is no dispute as to whether
any of the works were published. The issue, instead, is whether
the works were first published in a single unit of publication,
which all parties concede is a condition to group registration.
Although there may be cases where a determination of the date of
publication involves a difficult mixed question-of-fact-and-law, this
is not such a case.

22
inception when a customer requests that Unicolors
create a custom design to be exclusive to that customer.
Dist. Ct. Dkt. 235 at 50-58. Pazirandeh further
explained how Unicolors assured these confined
designs were not offered for sale to other customers:
Q Do you have any customers that come to
Unicolors and ask for you to create an original
design just for that customer?
A Always[.]
Q [O]nce the design is finished, how does
Unicolors keep that design from going out into
the showroom or keep that design from being
put in a salesperson’s hands and sold to the
public -- or offered to the public?
A [O]ut of the courtesy to my customers ... we
try to hold it for few months.
Ninth Cir. Case No. 18-56253, Dkt. 27, at 12-14; see
also Unicolors, 959 F.3d at 1196.
Q. Does Unicolors do anything internally to
designate designs that are not supposed to be
sold to the public?...
A. We try our best to tell in every meeting that
just as an honor code to keep this privacy. I
haven’t had any incident....
Q So you advise the salespeople and the rest of
the staff not to sell publicly,...
A. My design room manager [. . . ] when we
create a design for the specific customers, he’s

23
the one who is holding those designs back, and
... he doesn’t put it on the shelf.
Ninth Cir. Case No. 18-56253, Dkt. 8-2, at 83.
Unicolors’ designer Lim further testified that nine
of the thirty-one designs in the group were “confined,”
meaning that Unicolors specifically created those
designs for certain customers. Id., at 110-12. Lim
explained that confined designs were marked with a
“C” prefix (e.g., CEH109), which appears on the face of
the Copyright Registration. CDCA Case No. 2:16-cv02322, Dkt. 235, at 110-12; Ninth Cir. Case No. 1856253, Dkt. 8-8, at 184-85. Lim testified that “EH” was
a code that meant January 2011, that “C” was a code
that meant confined, and that once the alpha code was
assigned in the computer, it “never changed.” CDCA
Case No. 2:16-cv-02322, Dkt. 235, at 110; Id., Dkt. 233,
at 106 (Lim testifying at trial “that means no other
person can overwrite the number which I designated to
my artwork”); Id.; Dist. Ct. Dkt. 283 at 56 (Lim further
testifying “my job ended when I created the design and
assigned the number [e.g.] EH210”).
Unicolors does not dispute that nine of the thirtyone designs were confined as of February 14, 2011, the
date Unicolors submitted its group application to the
Copyright Office. Petition at 5. Nor does Unicolors
dispute that its application would not be accurate if
those designs had also been confined as of January 15,
2011, the date of purported publication. Id.
Notwithstanding these concessions, Unicolors argues,
without citation to any supporting evidence, that the
confined designs were in fact published with the

24
unconfined designs on January 15, 2011,10 and
designated as confined sometime thereafter but before
February 14. Petition at 5. This is, however, contrary
to the testimony of Pazirandeh and Lim, quoted above.
In fact, as the Ninth Circuit correctly observed, the
evidence showed that “[t]he confined designs . . . were
not placed in the showroom for sale at the same time.”
Unicolors, 959 F.3d at 1199.
Obviously, it would make no sense for Unicolors to
develop an exclusive design at a customer’s specific
request, offer that design to the public on January 15,
and then wait until February 14, when submitting the
copyright application, to finally place the design in
“confined” status. Furthermore, Unicolors offered no
evidence that the confined code was first applied to the
confined designs after January 15, 2011. All evidence
is to the contrary. And, if such an unlikely scenario
had played out, the supporting evidence would be in
the exclusive possession of Unicolors. The failure of
Unicolors’ to offer any such evidence is telling. The
court of appeals has already rejected Unicolors’
distorted interpretation of the evidence, and there is no
reason for this Court to revisit the issue.
Thus, even if the now-discredited intent-to-defraud
test were still viable, it would not change the outcome
in this case. There is no doubt that Unicolors
knowingly included inaccurate information in its
10

Beyond the copyright registration itself, there was no evidence
that all thirty-one designs were actually published on this date.
Testimony points to a different conclusion; namely each unconfined
design was placed in the Sales Showroom by the Design Room
manager. Ninth Cir. Case No. 18-56253, Dkt. 8-2, at 83.

25
copyright application, mixing confined and unconfined
designs while falsely representing that the designs
were all first published together, as a group, on
January 15, 2011. Furthermore, Pazirandeh was not
coy about this motivation for combining numerous
designs in one group registration. As he put it, the
practice was “for saving money” on copyright
application fees. Ninth Cir. Case No. 18-56253, Dkt. 82, at 72. It is therefore undisputed that Unicolors
knowingly represented to the Copyright Office that all
of the designs in the group had been published
concurrently, fully aware that this was not the case.
Unicolors’ motive is not disputed; to avoid paying
application fees it would otherwise (and rightfully)
have to pay. All of the elements of fraud are present.11
Thus, even if consideration of the intent-to-defraud test
was warranted, this case represents an exceptionally
poor vehicle for doing so.

11

Amici introduce a new argument on this point: they claim the
Court should adopt a new rule of interpretation stating that
because the date of publication is arguably a “legal conclusion,”
misrepresentations regarding the date of publication can never
constitute “inaccurate information” under section 411(b)(1)(A), and
that therefore misstatements about the date of publication can
never provide the basis for invalidating a registration under
section 411(b). Unsurprisingly, Amici cite no authority for this
radical proposition, which would grant registrants carte blanche to
misrepresent the dates of publication to the Copyright Office.
Amici’s argument that the date of publication should be exempt
from the mandate that registrants submit accurate information is
not consistent with the language of the Copyright Act, which
recognizes no such distinction. To the extent Amici seek such a
startling departure from current law, Amici should petition
Congress, not this Court.

26
D. The Ninth Circuit’s Interpretation of the
“Single Unit of Publication” Standard Is Based
on a Careful, Correct Interpretation of the
Text of the Regulation Itself, and It Is Not
Based on Retroactive Application of an
Administrative Interpretation
The court of appeals correctly held below that a
collection of works does not qualify as a “single unit of
publication” unless all individual works in the
collection were first published as a singular, bundled
unit. Unicolors, at 1199. Unicolors falsely asserts that
the Ninth Circuit, by positing a new “bundling”
requirement to the registration at issue, has
“erroneously retroactively applied [the U.S. Copyright
Office] Compendium III’s standard, which did not exist
at the time of the ‘400 Registration’s application.”
Petition at 19. This mischaracterization is belied by
simple examination of the decision itself. The court of
appeals’ conclusion was based on a careful analysis of
the actual text of the regulation itself, not on deference
to the Compendium. In a key passage, the court
explained:
Here, § 202.3(b)(4)(i)(A) refers to “copyrightable
elements that are otherwise recognizable as selfcontained works, which are included in a single
unit of publication.” …
By referring to
“elements” that are “otherwise ... self-contained
works,” the regulation unambiguously
contemplates that a “single-unit of publication”
does not cover separate self-contained works,
but instead covers the unification of such works
that otherwise could be self-contained.

27
Unicolors, 959 F.3d at 1199 (emphases in original).
Although the court of appeals did cite to the
Compendium, the citation is relegated to a footnote
that offers an alternative justification for its holding:
Even if the term “single unit” were ambiguous,
we would hold the term has the same meaning.
If it were ambiguous, we would look to how the
U.S. Copyright Office has defined the term in its
internal manual, Compendium of Copyright
Office Practices. […] The Compendium’s
definition for “single unit” thus aligns with what
we ascribe as its unambiguous and plain
meaning.
Id. at 1199 n.3 (citations omitted) (emphases added).
Again, the court of appeals’ primary holding is based on
careful examination of the regulation itself, applying
traditional tools of statutory interpretation. One
reference to the Compendium in a footnote – to
hypothetically discuss a non-existent ambiguity – does
not change this.
E. This Case Is a Poor Vehicle for Refining the
Contours of the “Single Unit of Publication”
Test, As Any Such Refinement Will Have No
Impact on this Case
Unicolors concedes that a registrant may include
multiple designs in a single application only where all
works “are included in a single unit of publication.”
Petition at 2, citing 37 C.F.R. § 202.3(b)(4)(i)(A).
Unicolors further concedes that group registrations are
only permissible where “the works were first offered for
sale together.” Petition at 20 (citing Yurman Studio,

28
Inc. v. Castaneda, 591 F. Supp. 2d 471, 492 (S.D.N.Y.
2008)); see also Petition at 19 (acknowledging that “the
works are [must be] “first ‘sold, distributed or offered
for sale concurrently’”) (citing United Fabrics, Int’l, Inc.
v. C&J Wear, Inc., 630 F.3d 1255 (9th Cir. 2011)).
As discussed above, it is clear that Unicolors cannot
satisfy the “single unit of publication” test, under any
interpretation of that test, because the designs were not
first offered for sale together.12 Unicolors attempts to
distract with the peripheral issue of whether group
designs must be sold as a singled, bundled unit. Even
if the “bundling” standard applied by the Ninth Circuit
were incorrect, that would not change the outcome in
this case. It is clear that Unicolors’ thirty-one designs
were not first offered for sale concurrently – the design
room manager specifically held back confined designs13
– and that Unicolors just pretended otherwise in order
to save money on application fees. In this case, the

12

Amici suggest that the ‘400 Registration should not be
invalidated in its entirety because the factual misrepresentations
therein did not relate to EH101, but to nine other designs
improperly included in the group registration. Amicus Brief at 2526. However, this misses the bigger picture. Unicolors
misrepresented that all thirty-one designs, including EH101, were
published together, in an unlawful ruse to avoid payment of
legally-mandated Copyright Office registration fees. To the extent
that Unicolors presented a misleading group application to the
Copyright Office for this purpose, it is entirely appropriate that the
entire registration should be invalidated.
13

The design room manager also likely placed the non-confined
designs into the showroom as each was completed, which
constitutes an additional violation of the single unit of publication
rule. Ninth Cir. Case No. 18-56253, Dkt. 8-2, at 83.

29
“single unit of publication” is not satisfied. If this
Court were to grant review on this issue, it would end
up issuing an advisory opinion that would have no
impact on the parties.14
CONCLUSION
For the foregoing reasons, the petition for a writ of
certiorari should be denied.
Dated: April 1, 2021
Respectfully submitted,
STACI JENNIFER RIORDAN
DALE ALFRED HUDSON
NEAL JAMES GAUGER
Counsel of Record
NIXON PEABODY LLP
300 South Grand Avenue, 41st Floor
Los Angeles, California, 90071
Tel: (213) 629-6000
Fax: (213) 629-6001
sriordan@nixonpeabody.com
Attorneys for Respondent
H & M Hennes & Mauritz LP

14

In the final section of their brief, Amici suggest that this Court
should create, out of whole cloth, one of five possible new rules to
make it harder for defendants to invalidate copyrights. In light of
the clear language of 411(b)(1), these arguments once again would
be more appropriately addressed to Congress.

